                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                                  CLOSEOUT MEMORANDUM

Case Number: M01030007                                                                        Page 1 of 1



              In April 1999,NSF's Deputy Director notified the subject' of his determination,based on our
      investigation report: that he had committed misconduct in science; as a result, for 2 years fiom that
      date, the subject was required to provide detailed certifications and assurances in connection with
      any research proposals or reports he submitted to NSF. We subsequently learned that, although the
      subject submitted a certification and assurance when specificallyrequested to in the summer of 1999
      for a proposal submitted before the Deputy Director's decision, he failed to provide certifications or
      assurances for a proposal he submitted in August 1999, for a request for REU funding submitted in
      March 2000, and for a research proposal submitted in July 2000.

              On the basis of these failures to comply with his certification requirements, in April 2001 we
      recommended that NSF's Director debar the subject for a period of two years. In October 2001,
      NSF's Deputy Director issued a Notice of Proposed Debarment to the subject, and in December 2001
      counsel for the subject submitted a response objecting to the proposed debarment. On 17 June 2002
      NSF and the subject settled the matter with the attached settlement agreement. The agreement
      requires the subject to provide detailed certifications and assurances in connection with any research
      proposals or reports he submits to NSF until 25 October 2003. The settlement agreement also
      stipulates that any breach of the certification and assurance requirements will constitute a material
      breach of the agreement, warranting debarment under NSF's debarment regulation.

                Accordingly, this case is closed.




      '   Dr.                 is a professor of      at .1-
          Case M 93080046.

                                                                                   - - -- -


                             Agent                   Attorney             Supervisor                  AIGI

  Sign 1 date
                               SETTLEMENT AGREEMENT

This Agreement is voluntarily entered into between
and the National Science Foundation ('%SF") for the purpose of fully resolving NSF's
debarment proceeding against
                                            RECITALS

A.    NSF's Ofice of the Inspector General ("OIG") issued a report on April 26,2001 in
      which it recommended that NSF debar.               for failing to comply with
      certifications and assurances requirements in connection with submitting proposals
      to the NSF.              submitted a response to the OIG investigation report.

B.    Based upon the OIG report, NSF issued a notice of proposed debarment on October
      25,200 1, proposing to debar '         from Federal funding for two years. On
      December 17,2001, .             attorney submitted a response to the notice of
      proposed debarment and requested a fact-finding hearing.

THE UNDERSIGNED PARTIES HEREBY AGREE AS FOLLOWS:

1.                voluntarily waives any right that he has to a fact-finding hearing on
      disputed material issues of fact pertinent to the debarment proceeding, and waives
      any right to a meeting with the debarring official to present fiuther information or
      argument in opposition to the proposed debarment, and agrees to the terms set forth
      below.

                   agrees that if he submits any proposals (including REU supplemental
      proposals or grant renewal proposals), or reports to NSF before October 25,2003,
      he will submit to NSF's OIG a copy of the proposal or report, along with a separate
      written certification. The certification shall state that: (a) he recently reviewed
      NSF's research misconduct regulations and that to the best of his knowledge the
      document is free of any such misconduct; (b) to the best of his knowledge the
      proposal or report accurately reflects the status and results of his research; and (c) to
      the best of his knowledge all statements in the proposal or report as to research
      results and the capabilities of his laboratory are backed by appropriate
                                                                                    . '
      documentation. This certification must be sent at the same time that r
      submits his research proposal or report to NSF or report the results of the funded
      research. The certification should be sent to the Associate Inspector General for
      Investigations, 4201 Wilson Boulevard, Arlington, Virginia 22230.

3.                also agrees that if he submits any proposal or report to NSF before
      October 25,2003, his Department Chairperson or Dean must also submit an
      assurance to the OIG that to the best of his or her knowledge: (a)           '


      research proposal or report does not contain any falsification or fabrication; (b) the      .
      document accurately represents the status or results of'              resemh; and



                                lP.tlm\NSFoettlement frnnl vminn 1 n h m ~03
D\WP dn~.11rnmtc\Cwnntc\NSF\7Onl-O?                                        . dm?
          (c) any statements in.               proposal or report as to research results or the
          capabilities of his laboratory are backed by appropriate documentation.

    4.
          -9
                        understands that the certification and assurance requirements described
          in paragraphs 2. and 3. above should be submitted to the OIG simultaneously with
          his submission of the proposal or report to NSF and that waiting to file the
          certification or assurance until a funding decision has been made on a proposal does
          not fulfill the requirements of this Settlement Agreement.

j   5.    NSF agrees that it will not debar              based upon his alleged failure to file a
          certification or assurance as described in the Notice of Proposed Debarment. This
          does not preclude NSF from pursuing a debarment action against :                if he
          does not comply with the certification and assurance requirements contained in this
          Settlement Agreement, or if he engages in future actions that are a cause for
          debarment under NSF's debarment regulations.

    6.    As a result of an investigation concluded in 1999,           was required to
          submit certifications and assurances to NSF concomitant with submissions to NSF.
          This matter arose from alleged noncompliance with those requirements with regard
          to subsequent submissions to NSF. NSF is not aware at this time of any
          misrepresentations by              in those subsequent submissions to NSF.

    7.    NSF agrees that debarment and suspension are not punitive sanctions, but are used
          for the protection of the United States Government.

    8.    The Parties agree that the certification and assurance requirements contained in this
          Settlement Agreement are "material" provisions of this Settlement Agreement for
          the purposes of 45 CFR Section 620.305(~)(4).

    9.     This Settlement Agreement does not constitute an admission of guilt, fault, or
           wrongdoing by either party.

    10. Disclosure of any records or information by NSF from the NSF case file in this
        debarment proceeding will be consistent with the Privacy Act of 1974 and the
        Privacy Act System Notice NSF-55, "Debment/Scientific Misconduct Files," as
        published at 59 Fed. Reg. 3879 (Jan. 27, 1994).
                                                 -
    11. The NSF agrees that .            name will not be provided to the United States
        General Services Administration for purposes of the "List of Parties Excluded from
        Federal Procurement or Nonprocurement Programs" based upon this Settlement
        Agreement because the disposition of this matter is not a suspension, voluntary
        exclusion or debarment.

    12. This Settlement Agreement constitutes the entire agreement between the parties
        regarding the above-described matter. No modification to this Settlement
        Agreement shall be valid unless written and executed by both parties thereto.


    n . \ w dnr.llm~tc\r~nnt~\NSm7n01
                                  -07 I,=.ttm<\NSF
                                                 cettl,=.rnent
                                                             final vminn 10 hine 07 doc
    13. NSF is not responsible for the payment of any of I                              attorney fees or costs
        incurred as a result of this debarment proceeding.

    14. This Settlement Agreement terminates and settles this matter, and no party may
        bring legal action regarding this matter except concerning breach of this Settlement
        Agreement.

    15.   .          has had the opportunity to discuss this Settlement Agreement with his
i         attorney and hlly understands its terms.

    16. This Settlement Agreement is effective on the date signed by NSF's Office of
          General Counsel.

    17. This Settlement Agreement will be null and void if not executed by NSF's Ofice of
        General Counsel within ten calendar days after the signing of the Settlement
        Agreement by       '     or his attorney, whichever is later.

                               for himself


                                                                                             \
                                                                     Date


    National Science Foundation, by counsel


                                                                      6-/?6       2
    Anita Eisenstadt                                                 Date
    Assistant General Counsel
    National Science Foundation




                                        l~ttmc\NSFcettlement final vminn 1 n Trine 03 dnr!
    lT\WP rlnr?rrmmtc\~wnntc\NSF\3flfll-fl7
